No.

IN THE
SUPREME COURT OF THE UNITED STATES

JIMMY LEE NAVE JR. - PETITIONER

VS.
RICHARD BROWN, WARDEN- RESPONDENT
PROOF OF SERVICE
I, Jimmy Lee Nave Jr., do swear or declare that on this date, January 26, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:
Jessse R. Drum
Indiana Attorney General
302 West Washington Street
Indiana Government Center South, Fifth Floor
Indianapolis, IN. 46204
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 26, 2021.

'(Signature)

